No.

19-262
Xtr

&marmite CourtHof the tam) 6tate0
•
Xiao-Ying Yu,
Petitioner,
v.
Maryland Department of Health, Secretary Robert Null
and Maryland Department of Budget and
Management, Secretary David Brinkley
Respondents.

•
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fourth Circuit
0
PETITIONER FOR REHEARING
•

November 14, 2019

Xiao-Ying Yu
P.O. Box 293
Abingdon, MD 21009
Telephone: 410-671-9823
Pro Se. Petitioner

1

TABLE OF CONTENTS
Page
TABLE OF CONTENTS

i

TABLE OF AUTHORITIES

ii

PETITION FOR REHEARING
GROUNDS FOR REHEARING

1
1

The Petition should be granted based
on this Court's decision and Solicitor
General's amicus curiae in the case
of Fort Bend County v. Davis that
EEOC charge-filing requirement is not
a jurisdictional prerequisite to sue

2

The petition should be granted because
Congress enacted the anti-retaliation
provision of Title VII to forbid
employment discrimination, Abrogated
State's Eleventh Amendment immunity
to suit for the deprivation of employee's
property without "due process" guaranteed
by §1's protection under Fourteenth
Amendment, and amended Section
504 Rehabilitation Act via 42 U.S.C.
§ 2000d-7(a)(1) prohibiting the State's
(Who receives federal funding) Immunity
to employee's ADA claim

3

The State employer's response to the
petition should be requested because
employer should be liable for the
supervisor's harassment, discrimination
and retaliation (Vance v. Ball State

11

University, 133 S. Ct. 2434) and
because it is a pre-required condition
for granting a Petition

11

D. The petition should be granted or held
as increasing conflicts regarding
decisions of Title VII and ADA claims
and debates about the state's
immunity to be preempted from
Congressional abrogation of State's
immunity and power to enforce the
litigation for State's receipt of federal
funds and deprivation of petitioners'
property without due process as
retaliation against their EEOC's
Title VII and ADA charges
CONCLUSION

12
17

TABLE OF AUTHORITIEES
CASE:
Arbaugh v. Y&H Corp 546 U.S.
at 500, 515 (2006)
Bend County v. Davis, 139 S. Ct. 1834
(6/3/2019)

Page

3

1,3

BNSF Railway CO., v. EEOC,
S. Ct. 18-1139, (2019)

1, 13

Board of Trustees of the University of
Alabama v. Garrett 531, U.S. 356 (2001)

4, 5,6

TABLE OF AUTHORITIEES
CASE:

Page

Cisneros v. United States of America,
Intervenor. (10th Cir), 226 3F.
3d.1113(2000)

13

City of Borene v. Flores 521, U.S. 507,
536 (1997)

4

Crawford v. Chipotle Mexican
Grill, 6th Cir. Case18-3360 (5/28/2019)

13

Downing v. Board of Trustees of
Univ. of Alabama, 11th Cir., 321 F. 3d
1017 (2003)

4

Firefighters v. Scotts, 467 U.S. 561 (1984)

12

Fitzpatrick v. Bitzer, 427 U.S. 445, 456 (1976)
Fort County, Texas, v. Lois M. Davis, S. Ct.
139, S. Ct. 1843, Case No.18-525

7

9,10

Goldberg v. Kelly, 397 U.S. 254(1970)

7

Head v. Wilkie, et al, 9th Cir(9/5/2019)

1,9

Henderson v. Shinseki, 562 U.S. 428,435(2011)....3
Kimel, 528 U.S. 62, 120 S.Ct. 631, 145
I.Ed. 2d 522 (2000)

4

iv
TABLE OF AUTHORITIEES
CASE:
Koslow v. Pennsylvania, 3rd Cir
158 F. 2d. 539 (2002)
Lunnie v. Univ. of Arkansas, 8th Cir
225 F. 3d. 615 (2001)
McDonnell Douglas Corp v. Green 411 U.S.
792, 802, 93 S. Ct. 1917, 36 L. Ed. 2d. 668,
(1973)
Nall v. BNSF Railway CO. 5th Cir
(2/15/2019)

Page

13

4

12

1,10

Robinson v. Shell Oil CO. 117 S. Ct. 843,
137 L. Ed. 2d 808, (1997)

4

Stewart v. Lancu, U.S.
Patent and Trademark Office, 4th Cir.
(1/8/2019)

7

Teamsters v. United States, 431 U.S. 324
(1977)
Tebi v. City of Debary FL., 11th Cir.
(9/3/2019)
Tennessee v. George Lane, 541, U.S. 509,
(2004)
Vance v. Ball State University,133 S. Ct.
2434 (2013)

12

9

4,5

11,12

V

TABLE OF AUTHORITIEES
CASE:

Page

Wallace v. Seton Family of
Hospital, 5th Cir (6/13/2019)

13

Wilson v. Pennsylvania State Police
Dept. 3rd Cir (WL 31482373, 2002)

13

STATUTES PROVISIONS,
RULES AND REGULATIONS:
Eleventh Amendment to U.S. CONST

vii, 3,4,5,

6,7,12, 14
Fourteenth Amendment § land 5 to U.S.
CONST
vii,viii 3,4,5,6,7,14
28 U.S. C. §1331

viii, 2

29 CFR §1630.15&1630.9
29 U.S.C. § 621, et. seq.,
The Age
Discrimination in Employment Act
8, 9,10, 12,13, 14
29 U.S.C. § 794(a) Section 504 of the
Rehabilitation Act
29 CFR 825.220 Protection for Employees
Who Request leave or otherwise assert

ix,x,l, 2,

x 3,7,14

vi
TABLE OF AUTHORITIEES
STATUTES PROVISIONS,
RULES AND REGULATIONS:

FMLA Rights

Page

x, xi,xii, 8

42 U.S.Code §12101 et seq.,The American
with Disabilities Act Law
xii, xiii,l, 2, 4,
5, 6, 7, 8, 9,10,12, 13,14
42 U.S.Code §1983

xiv 14

42 U.S.C. §20000e seq. Title VII of the
Civil rights Act of 1964 Law
xiv,xv,l, 2, 3,
4, 8, 9, 10,12,13,14,
42 U.S.Code §2000d-4(a)
42 U.S.Code §2000d- 7(a)(1)
The Supremacy Clause of Constitution
Art VI, cL2

xvi,7
xvi, xvii,3,7

xviii.14

vii
STATUTES INVOLVED
STATUES PROVISIONS AND
REGULATIONS:
Eleventh Amendment- U.S.CONST:
" The judicial power of the Unites States
shall not be construed to extend to any suit
in law or equity, commenced or prosecuted
against one of the United States by citizens
of another state, or by citizens or subjects of
any foreign state."
Fourteenth Amendment-U.S. CONST.:
Section 1.
"...All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and
of the state wherein they reside. No state
shall make or enforce any law which shall
abridge the privileges or immunities of
citizens of the United States; nor shall any
state deprive any person of life, liberty, or

viii
property, without due process of law; nor
deny to any person within its jurisdiction the
equal protection of the laws."
Section 5.
"The Congress shall have power to enforce,
by appropriate legislation, the provisions of
this article."
28 U.S. C. §1331
" The district courts shall have original
jurisdiction of all civil actions arising under
the constitution, laws or treaties of the
United States."
CFR§1630.15-Defense.
"(d) Charges of not making reasonable
accommodation. It may be a defense to a
charge of discrimination, as described in §
1630.9, that a requested or necessary
accommodation would impose an undue
hardship on the operation of the covered
entity's business.
29 CFR§1630.9-Not making reasonable
accommodation.

ix
(a) It is unlawful for a covered entity not to
make reasonable accommodation to the
known physical or mental limitations of an
otherwise qualified applicant or employee
with a disability unless such covered entity
can demonstrate that the accommodation
would impose an undue hardship on the
operation of its business. (b) It is unlawful
for a covered entity to deny employment
opportunities to an otherwise qualified job
applicant or employee with a disability based
on the need of such covered entity to make
reasonable accommodation to such
individual's physical or mental impairments.
29 U.S.C. § 621, e. seq: Prohibition of age
discrimination ("ADEA")
§ 623 (a).Employer practice:
to fail or to refuse to hire or to
discharge any individual or otherwise
discriminate against individual with respect
to his compensation, terms, conditions, or
privileges of employment, because of such
individual's age;
to limit, segregate, or classify his
employees in any way which would deprive
or tend to deprive any individual of
employment opportunities or otherwise

x
adversely affect his status as an employee,
because of such individual age; or
(3) to reduce the wage rate of any
employee in order to comply with this
chapter.
(d). Opposition to unlawful practice;
participate in investigations, proceedings, or
litigation. It shall be unlawful for an
employer... discriminate
against
any
individual.., because such individual has
opposed any practice made unlawful by this
section, ...or because such individual ...made
a charge,..."
29 U.S.C. § 794(a) Section 504 of the
Rehabilitation Act:
"No otherwise qualified individual with a
disability in the United States as defined
in section 705(20) of this title shall, solely by
reason of her or his disability, be excluded
from the participation in, be denied the
benefits of, or be subjected to discrimination
under any program or activity receiving
Federal financial assistance."
Rule 29 CFR 825.220 Protection for
Employees who Request Leave or otherwise
Assert FMLA Rights:

xi

"(a) The FMLA prohibits interference with
an employee's rights under the law, and
with legal proceedings or inquiries relating
to an employee's rights. More specifically,
the law contains the following employee
protections...
Any violations of the Act or of these
regulations constitute interfering with,
restraining, or denying the exercise of
rights provided by the Act. An employer
may be liable for compensation and
benefits lost by reason of the violation, ...
See § 825.400(c). Interfering with the
exercise of an employee's rights would
include, for example, not only refusing to
authorize FMLA leave, but discouraging an
employee from using such leave. It would
also include manipulation by a covered
employer to avoid responsibilities under
FMLA...
The Act's prohibition against
interference prohibits an employer from
discriminating or retaliating against an
employee or prospective employee for
having exercised or attempted to exercise
FMLA rights. See § 825.215.
(d)...
(e) Individuals, and not merely employees,
are protected from retaliation for opposing
(e.g., filing a complaint about) any practice
which is unlawful under the Act. They are
similarly protected if they oppose any
practice which they reasonably believe to
be a violation of the Act or regulations."

xii

42 U.S.C. Chapter 126-Equal opportunity for
individual with disability § 12101 et seq.,
("ADA"):
42 U.S.C. Chapter 126, Subchapter I,
Employment
§ 12112 Discrimination:
"(a) No covered entity shall discriminate
against a qualified individual on the basis of
disability in regard to job application
peocedure, the hirring, advancement, or
discharge of employees, employee
compensation, job training, and othere terms,
conditions, and privileges of employment."
§ 12117 Enforcement
"(a) Power, remedies, and procedures
The power, remedies, and procedures set for
forth in sections ....provides to ... or to any
person allerging discrimination on the basis
of disability in violation of any provision of
this chapter, or regulations promulgated
under section 12116 of this title, concerning
employment."
42 U.S.C. Chapter 126, Subchapter IVMiscellaneous Provisions

§12202. State Immunity
"A State shall not be immune under the
eleventh amendment to the constitution of
the United State from an action in Federal or
State court of competent jurisdiction for a
violation of this chapter , remedies (including
remeedies both at law and in equity) are
available for such a violation to the same
extent as such remmedies are available for
such a violation in an action against any
publix or private entity other than a state."
§12203. Prohibition against retaliation and
coercion
"(a) Retaliation:
No person shall discriminate against any
individual because such individual has
opposed an act or practice made unlawful by
this charpter or because such individual
made a charge, testified, or participate in
any manner in an investigation, proceeding,
or hearing under this charpter."
(c) Remedies and procedures: The remedies
and procedures avaiable under section 12117,
12133 and 12188 of this title shall be
avalable to aggreved persons for violation of
subsections (a) and (b) of this section, with
respect to subchapter I, subchapter II and
subchapter III of this chapter, respectively."

xiv
42 U.S.Code §1983:
"Every person who, under color of any
statute..., any citizen of the United States or
other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or
immunities secured by the constitution and
law, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress..."

42 U.S.C. §§ 2000e et seq. Title VII of the
civil rights Act of 1964 law: ("Title VII"):
§2000e-2. Unlawful employment practices
"(a) Employer practice: It shall be an
unlawful employment practice for an
employer
to fail or refuse to hire or to
discharge any individual , or otherwise to
discriminate against individual with respect
to his compensation, terms, conditions, or
privileges of employment, because of such
individual's race, color, religion, sex, or
national origin; or
to limit, segregate, or classify his
employment or applicants for employment in
any way which would deprive or tend to
deprive any individual of employment

opportunities or otherwise adversely affect
his status as an employee, because of such
individual's race, color, religion, sex, or
national origin.
•• •
(m) Impermissible consideration of race,
color, religion, sex, or national origin in
employment practice:
Except as otherwise proved in this
subchapter, an unlawful employment
practice is established when the complaining
party demonstrates that race, color, religion,
sex, or national origin was a motivating
factor for any employment practice, even
though other factors also motivated the
practice."
§2000e-3. Other unlawful employment
practices
"(a) Discrimination for making charges,
testifying, assisting, or participating in
enforcement proceedings:
"It shall be an unlawful employment practice
for an employer to discriminate against any
of his employees or applicants for
employment... because he has opposed any
practice made an unlawful employment
practice by this subchapter, or because he
has made a charge, testified, assisted, or
participated in any manner in an

xvi
investigation, proceeding, or hearing under
this chapter."

42 U.S.Code P000d-4a.
" For the purpose of this subchapter, the term
"program or activity" and the term
"program" mean all of the operations of department, agency, special purpose
district, or other instrumentality of a State
or a local government; or
the entity of such State or local
government that distributes such assistance
and each such department or agency (and
each other State or local government entity)
to which the assistance is extended, in the
case of assistance to a State or local
government."
42 U.S.Code §2000d-7(a)(1)
(a) General provision
(1) A State shall not be immune under the
Eleventh Amendment of the Constitution of
the United States from suit in federal court
for a violation of section 504 of the
Rehabilitation Act of 1973 (29 U.S. C. 794),
Title IX of the Education Amendment of
1972 [20 U.S. C. 1681 et seq., the Age

xvii
discrimination Act of 197 [42 U.F42 U.S.C.
6101 et seq, ] , Title VI of the civil rights Act
of 1964 [42 U.S.C. 2000d et seq.] or the
provisions of an other Federal statute
prohibiting discrimination by receipts of
Federal financial assistance."
OTHER AUTHORITIES
The Supremacy Clause of the Constitution:
" This Constitution, and the laws of the
United States which shall be made in
Pursuance thereof, and Treaties made, or
which shall be made, under the Authority of
the United States, shall be the supreme Law
of the Land; and the judges in every State
shall be bound thereby, any Thing in the
Constitution or Laws of any State to the
Contrary notwithstanding."
Art. VI, c1.2.

1
PETITION FOR REHEARING
Pursuant to the Court's Rule 44.2, Petitioner
herein respectfully petitions for rehearing of the
Court's order denying certiorari in this case.
Petitioner further requests to defer consideration of
this petition pending the Court's forthcoming
decision and opinion in BNSF Railway CO. v. EEOC
regarding the petition against Ninth Circuit's
decision in favor of the victim of Title I of ADA
discrimination. Alternatively, Petitioner requests
that the Court grant the petition, vacate the
judgment of U.S. Court of Appeals at Fourth Circuit
("Fourth Circuit") and remand to Fourth Circuit for
further proceeding in the light of decisions made for
the victims of workplace Title VII, ADA and ADEA
discrimination and retaliation (Bend County v. Davis,
139 S. Ct. 1834 (2019); Head v. Wilkie, et al. (2019);
and Nall v. BNSF Railway CO. 2019).
GROUNDS FOR REHEARING
According to this Court's Rule 44.2, the ground of
petition for rehearing should be limited to
intervening circumstances or substantial grounds
previously were not presented. After Fourth Circuit
released the judgment, there is a new decision and
forthcoming decision of similar cases in this Court.
Also, there are conflicts in several Circuits' decisions
for Title VII and ADA claims.

2

A. The Petition should be granted based on
this Court's decision and Solicitor
General's amicus curiae in the case of
Fort Bend County v. Davis that EEOC
charge-filing requirement is not a
jurisdictional prerequisite to sue.
Despite the receipt of EEOC's right-to-sue
letter docketed in District Court (Petitionappendix#27b), Fourth Circuit affirmed District
Court's dismissal of Petitioner's Title VII, ADEA and
ADA claims by alleging that Petitioner failed to
exhaust her administrative remedies before EEOC,
and "lack of subject matter of jurisdiction".
For "lack of subject-matter of jurisdiction", the
text of Title VII provides no indication that Congress
intended the exhaustion requirement to be
jurisdictional. Federal district courts have subjectmatter jurisdiction over Title VII claims based on 28
U.S.0 § 1331 and 42 U.S.C. § 2000e-5(0(3). "Neither
28 U.S.0 § 1331, nor Title VIPs jurisdictional
provision, 42 U.S.C. § 2000e-5(0(3)... specifies any
threshold ingredient akin to 28 U.S.C. § 1332's
monetary floor." Arbaugh v. Y&H Corp 546 U.S. at
515 (2006). Thus, neither the text nor the structure
of Title VII provides a clear indication that Congress
intended the exhaustion requirement to limit district
court's subject-matter jurisdiction. If Congress has
not spoken clearly, this Court will presume that the

3
requirement is a claim-processing rule-"mandatory"
to be sure, but not "given the jurisdictional brand,"
Henderson v. Shinseki, 562 U.S. 428,435(2011). This
Court has applied this both in the Title VII context
and else-where, and has repeatedly rejected claims
that statutory prerequisites are jurisdictional and
has consistently held that Congress did not clearly
state its intention to make the prerequisite
jurisdictional. Fort County, Texas, v. Lois M Davis,
139 S. Ct. 1843 (2019)
In addition, the United States supported the
employee Davis, contending that "Tide VII's chargefiling requirement is not a jurisdictional prerequisite
under this Court's precedent".
Based on above, the petition should be granted.
Fourth Circuit's judgment to affirm the dismissal for
lack of subject-matter of jurisdiction should be
vacated and remanded for further proceedings based
on the reason described above.
B. The petition should be granted because
Congress enacted the anti-retaliation
provision of Title VII to forbid
employment discrimination; abrogated
State's Eleventh Amendment immunity
to suit for the deprivation of citizen's
property without "due process"
guaranteed by §1's protection of
Fourteenth Amendment, and amended
Sections 504 Rehabilitation Act via 42
U.S.C. § 2000d -7(a)(1) Prohibiting the

4
State's (Who Receives Federal Funding)
Immunity to Employee's ADA Claim.
Several Circuits reversed district courts'
dismissal of employees' Title VII claims based on
that Title VII's prohibitions on racial, sex and
national origin discrimination and retaliation (42
U.S.C. § 2000e-2(m) and 2000e-3(a)) are valid
exercises of Congress power to enforce litigation
under Fourteenth Amendment and State do not have
Eleventh Amendment immunity to Title VII actions
(Lunnie v. Univ. of Arkansas, 8th Cir. 225 F.
3d.(2001); Downing v. Board of Trustees of Univ. of
Alabama, 11th Cir. 321 F. 3d.1017 (2003); Robinson v.
Shell Oil CO. 117 S. Ct. 843, 136 L.Ed.2d 808, (1997)).
In addition, as Petitioner addressed in her
certiorari and Application for suspension of the
Court's order denying the certiorari, Congress
abrogated States' Eleventh Amendment immunity to
claims like her case. Kimel v. Florida Bd of Regents.
528 U.S. 62. 73 (2000) stated Congress both
unequivocally intends to do so and acts pursuant to a
valid grant of constitutional authority. There is
dispute in the second part of these requirement. § 5
of Fourteenth Amendment authorizes Congress to
enforce the substantive guarantees contained in § 1
of Fourteenth Amendment by enacting "appropriate
legislation." See City of Borene v. Flores 521 U.S. 507,
536 (1997). In the case Board of Trustees of the
University of Alabama v. Garett, 531 U.S. 356 (2001),

5
respondents Garrett and Ash filed separate lawsuits
against petitioners, Alabama University employers.
The State employer transferred Garrett (who has
breast cancer needing tune- consuming radiation and
chemotherapy), and Ash (who has lifelong severe
asthma) to positions with lower salaries. Then
Garrett and Ash were seeking money damages under
Title I of ADA, which prohibits States and other
employers from "discriminating against a qualified
individual with a disability because that disability...
in regard to. terms, conditions, and privileges of
employment," 42U.S.C.§12112(a). The district court
granted employer's summary judgment, agreeing
with them that ADA claim exceeds Congress'
authority to abrogate State's Eleventh Amendment
immunity. But Eleventh Circuit reversed the district
court's decision on the ground that ADA validly
abrogates such immunity. In another case,
Tennessee, v. Lane, 541 U.S. 509 (2004), the
petitioners were disabled Tennesseans who could not
access the upper floors in State courthouses. They
sued in Federal Court, arguing that since Tennessee
State was denying them public services because of
their disabilities, it was violating Title II of ADA.
Under Title II, no one can be denied access to public
services due to his or her disabilities; it allows those
whose rights have been violated to sue States for
money damages. Tennessee State argued in their
motion to dismiss the case based on the principle on
Board of Trustees of the University of Alabama v.

6
Garrett (2001) in which the Supreme Court reversed
Eleventh Circuit's decision, and held that Congress
had, in enacting certain provisions of the ADA,
unconstitutionally abrogated the sovereign immunity
of States by letting people sue States for
discrimination on the basis of disability. In Lane's
case, the majority justice of this Court ruled that
Congress did have enough evidence that the disabled
were being denied those fundamental rights that are
protected by Due Process clause of the Fourteenth
Amendment, among those rights being the right to
access a court. While in Garrett's case, this Court
said, Garrett's petition applied only to Equal
protection claims, and there is no indicator from the
records that the State employer violated the scope of
"Due Process claims" of §1's protection of Fourteenth
Amendment. Therefore, although this Court held
that Congress's abrogation does not valid States'
Eleventh Amendment Immunity to ADA claim (Title
I employment discrimination) in Garrett case, the
State officials are not immune from employee's suit,
if the circumstances indicate that Congress may
abrogate a State's immunity guaranteed by the § 1 of
Fourteenth Amendment, as this Court stated "The
Eleventh Amendment and the principle of State
sovereignty which it embodies are necessarily limited
by the enforcement provisions of the Fourteenth
Amendment." The Court added, "Congress may, in
determining what is 'appropriate legislation' for the
purpose of enforcing the provisions of the Fourteenth

7
Amendment, provide for private suits against States
or State officials which are constitutionally
impermissible in other contexts." Fitzpatrick v.
Bitzer, 427 U.S. 445, 456 (1976). Federal courts can
exercise jurisdiction when the State attempts to deny
a civil right to a citizen, in violation of Fourteenth
Amendment, especially, due process and equal
protection clauses in § 1 of Fourteenth Amendment
protects Employees' property from government
employer's deprivation without proof of
mitigation/hearing (Goldberg v. Kelly, 397 U.S. 254,
1970).
Furthermore, Congress amended (42 U.S.C. §
2000d-7(a)(1)) for Section 504 of Rehabilitation Act of
1973, Title 29 USCS § 794 (incorprating 42 U.S.C. §
2000(1-4a), and emphacized that by accepting federal
funds, States would waive their Eleventh
Amendment immunity from a suit brought against it
under the Rehabilitation Act, ADEA or other
discrimination Statute prohibits. Petitioner
addressed it in certiorari and response to
Respondents' motion to dismiss on 3/22/3018.
Respondents and lower courts failed to indicate that
any of Petitioner's exhibits related to federal CDC
funding which Respondents received did not exist or
was invalid. Nor did they allow Petitioner to argue
the genuine factual and legal issues regarding the
deprivation of her property without due process at
both lower courts.

8
In Stewart v. Lancu, U.S. Patent and
Trademark Office, Fourth Circuit reversed district
court's decision regarding violation of Stewart's civil
rights under Title VII and Rehabilitation Act, and
remand for further proceedings in January 2019.
During which, however, Fourth Circuit used
different principle to affirm District Court's dismissal
of Petitioner's claims under Title VII, ADA and
Rehabilitation Act, by alleging State' immunity to
most of her claims and her failure to state claims.
Neither respondents and lower courts proved
whether State employer ever took any legitimate
action to control the hostile working condition in
response to Petitioner's multiple internal appeals as
well as EEOC's Title VII, ADA and ADEA charges
about Ms. Barra's discriminatory and retaliatory
behaviors; or responded to the Petitioner's
accommodation request to transfer/hire her to work
in the Epidemiologist III position she applied for and
was evaluated as "best qualified" by MDH, or to
reassign/remain her in the CDC funded 1305
program to work with co-workers together for
different supervisor under seniority system despite
knowing that Petitioner's mental disability and
FMLA were caused by Ms. Barra's harassment and
retaliation and State Medical Director recommended
MDH to accommodate her to work for different
supervisor separating her from the cause (PetitionAppendix-Exhibit "Pet-E"#21, App.305-311); or
provided any legitimate, non-retaliatory and non-

9
pretext reason of "undue hardship" to reject
accommodation on 9/3/2014 after they received
Petitioner's EEOC ADA, Title VII and ADEA charge
file on 9/2/2014 by email'; nor did Respondents and
lower courts prove a mitigation or hearing prior to
termination of Petitioner's seniority job supported by
CDC funds.
In contrast, the petition-related appendix
showed Respondents' statement that Ms. Yu is "an
individual with disability who, with a reasonable
accommodation, cannot perform essential functions
of the position" in the termination notice without any
proof when, where and how long Petitioner had ever
been accommodated to return to work in seniority
system supported by CDC under a different
supervisor as State Medical Director recommended;
neither it was clear how and what indicators did
Respondents use to conclude Petitioner's failure to
perform essential function as their failure-toaccommodation as 29 CFR 1630. (Pet-E#26, App.395).
The decision of lower courts for Petitioner's
ADA, Title VII and ADEA claims is different from
MDH's "undue hardship" dated 9/3/2014 was prior to the
changes of office structure (October 2014) making the
office medical director no longer to supervise a staff in
order to prevent Ms. Yu from returning work under
different supervisor (written request by Petitioner in June
and July 2014), despite such "reasonable accommodation"
was not unduly burdensome and disproportionate to the
harm to either both departments nor her co-workers (PetE#22, App328, Pet-E#24, App.373).

10
recent decisions for Title VII or Title I of ADA claims
made by other Circuits, see Tebi v. City of Debary
FL., (2019); Head v. Wilkie, et aL 2019) and Flora
Nall v. BNSF Railway CO, (2019). Fifth Circuit
reversed the district court's decision, and remained
employee Nall's Title I of ADA (Parkinson's disease)
discrimination to the District Court for further
proceedings. These Circuits made their judgments
based on investigations: 1) if petitioner is qualified
protected class, such as disability employee and
capable to do the job, and if there is ADA
discrimination; 2) how did employer evaluate
employee's ability for essential function with
accommodation; 3) if there is the protected activity
and causal connection linking to adverse actions
against employee's prior complaints of Title VII, ADA
and ADEA, and if employer ever took action to
control discrimination; 4) if failure-to-accommodation
is ADA discrimination or/and retaliation and
whether failure-to-accommodation by some reasons
or "undue hardship" is real pretext.
The investigation of above issues conducted by
district court and Ninth Circ. was presented in the
current case (No. 18-1139) at this Court: BNSF
Railway CO. v. EEOC. In which, employee Mr.
Russell Holt filed charge with EEOC alleging that
BNSF had violated ADA. EEOC brought suit against
BNSF. District court held that BNSF violated ADA
by requiring Mr. Holt to pay for an MRI medical
examination as a condition of obtaining a job. Ninth

11
Circuit affirmed district court's finding of liability,
but vacated and remanded for further proceedings on
the injunction. Ninth Circuit denied BNSF's petition
for rehearing en banc. BNSF brought the petition to
this Court.
Petitioner addressed these issues through her
pleadings, appeal (Pet-#9, 10, 2b&30, certiorari and
related appendix including the new evidence proved
by EEOC-FOIA recording file (Pet-E#23&24). As
indicated above, Fourth Circuit's judgment lacks
factual and legal bases and should be vacated and
remanded for further proceedings.
C. The State employer's response to the
petition should be requested because
employer should be liable for the
supervisor's harassment, discrimination
and retaliation (Vance v. Ball State
University, 133 S. Ct. 2434, 2013) and
because it is a pre-required condition for
granting a petition.
In Petitioner's case, the employer agreed that
Ms. Barra was Petitioner's former supervisor based
on their responses in the district court and Fourth
Circuit. However, Respondents failed to provide any
legitimate, un-discriminatory, un-retaliatory and unpretext reasons for Ms. Barra's disparate treatments
of Petitioner on the annual performance evaluations
(Pet-E#13, App.237-238); her racial and national
origin/ethnic harassment, discrimination and

12
retaliation on 1/31 and 2/3/2014(Pet-E#15, App.248);
her unlawful change of Petitioner's job description
form in the terms, conditions and the privileges of
her employment under seniority system (PetE#12&18, App.235; 282); her motivation for MDH
HR to conduct the constructive discharge forcing
Petitioner to resign or retire during accommodation
interactive period; leading to final rejection of
accommodation and consequent termination without
mitigation as well as Ms. Barra's interference with
EEOC's investigation even after termination on
4/19/2017 (Pet-E#23, App.358, proved by EEOCFOIA records) under McDonnell Douglas framework.
Therefore, the response and the liability from
Respondents for Ms. Barra's harassment,
discrimination and retaliation should be requested
according to the Court justices' opinions and the view
of the United States presented by the Office of
Solicitor General in Vance v. Ball State University.
133 S. Ct. 2434 (2013). Also, the petition should be
granted for her as victim of Title VII and ADA
discrimination and retaliation based on this Court's
decisions in Teamsters v. United States, 431 U.S.
324 (1977) and Firefighters v. Scotts, 467 U.S.
561(1984) involving violation of constitution.
D. The petition should be granted or held as
increasing conflicts regarding decisions
of Title VII, ADA and ADEA claims and
debates about State's immunity to be

13
Congressional
from
preempted
abrogation of State's immunity and
power to enforce the litigation for State's
receipt of federal funds and deprivation
of petitioners' property without due
process as retaliation against their prior
EEOC's Title VII, ADA and ADEA
charges.
This petition for rehearing is contemplated on
the ground of increasing conflicts among Fourth
Circuit (18-1889, Petitioner's case) and other Circuits
on review and decisions for discriminatory and
retaliatory claims under Title VII, ADEA, ADA and
Section 504 of the Rehabilitation Act (Tebi v. City of
Debary FL., 2019); Head v. Wilkie, et al. 2019); Nall
v. BNSF Railway CO. (2019) and Wallace v. Seton
Family of Hospital, (2019); Crawford v. Cliipotle
Mexican Grill, (2019); Cisneros v. Wilson, 226 3F. 3d.
1113 (2000) Koslow v. Pennsylvania, 158 F. 2d.
(2002); and Wilson v. Pennsylvania State Police Dept.
WL. 31482373, 2002); as well as current petition
presented before this Court (BNEF Railway CO. v.
EEOC).
Because there is no legitimate basis for letting
Fourth Circuit's judgment become final based on that
"interests of justice" recognize that common claims
should not be treated differently on the basis of no
more than the "timing of litigation in different
courts" (see Supreme Court Practice, p.818-821), this
petition, coupled with the request for deferred

14
consideration of BNSF CO. v. EEOC, will preserve
an ideal vehicle for review of the immensely
important constitutional question (related to mixedretaliation factors in ADA hiring, accommodation,
constructive discharge and termination), should the
Court' intervention and supervision become
necessary like Garrett's case.
At the same time, holding the case will address
the development of debates whether State's
immunity to employee's Title VII, ADA and ADEA
claims can be preempted from Congressional clear
intention to abrogate State's Eleventh Amendment
immunity and to enforce the litigation for
deprivation of citizen's property without "Due
process" and "Equal Protection" under § 1 and 5 of
Fourteenth Amendment to U.S. CONST., Section 504
Rehabilitation Act, Title VII, 42 U.S.Code §1983, and
the Supremacy Clause of the Constitution Art. VI,
c1.2; and whether local rules can override
Constitution resulting in prevention of petitioners
from arguing genuine factual and legal issues about
the deprivation of their property without due process
and equal protection at federal courts. These issues
cannot be addressed and resolved by other Courts.
CONCLUSION
For the reasons presented above and in the
petition for certiorari, this Court should defer
consideration of the petition pending this Court's

15
decision and opinions in ADA claim: BNSF Railway
Co. v. EEOC, either remand or affirm Ninth Circuit's
decision, at which time the petition for rehearing
should be granted based on the comparison of the
merits in that case with this case. Alternatively, the
Court should grant the petition immediately, vacate
the Fourth Circuit's judgment, and remand for
further proceedings under this Court's intervention
and in light of other Circuits' actions described above.

Respectfully submitted,
c°
i0-451

Xiao-Ying u pro se
P.O. Box 293
Abingdon, MD 21009

CERTIFICATE OF THE PETITIONER
UNREPRESENTED BY COUNSEL
NO. 19-262

Xiao-Ying Yu
Petitioner
v.
Maryland Department of Health, Secretary Robert R. Neal, and
Maryland Department of Budget and Management,
Secretary David Brinkley
Respondent.

As required by Supreme Court Rule 44.2, I certified that the Petition for
Rehearing is presented in good faith and not for delay.

ica-01
Xiao-Ying Yu, pro se.
Mailing address
P.O. Box 293
Abingdon, MD 21009
(410)671-9823

